                                        SOCIAL SECURITY
MEMORANDUM

Date:      July 31, 2009                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Funding for Health Information Technology Under the American Recovery and
           Reinvestment Act of 2009 (A-01-09-29155)


           The attached final report presents the results of our review. Our objective was to
           evaluate the Social Security Administration’s plans for the funds earmarked for health
           information technology under the American Recovery and Reinvestment Act of 2009.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            Patrick P. O’Carroll

           Attachment
    QUICK RESPONSE
     EVALUATION

Funding for Health Information Technology
    Under the American Recovery and
        Reinvestment Act of 2009

              A-01-09-29155




                July 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                               Background
OBJECTIVE
Our objective was to evaluate the Social Security Administration’s (SSA) plans for the
funds earmarked for health information technology (HIT) under the American Recovery
and Reinvestment Act of 2009 (ARRA).

BACKGROUND
The President signed ARRA into law on February 17, 2009. ARRA provided SSA
$500 million to process additional retirement and disability workloads received as a
result of the economic downturn. ARRA also allows the Commissioner of SSA to use
up to $40 million of these funds for HIT research activities to facilitate the adoption of
electronic health records in disability claims. These funds must be obligated by
September 30, 2010. 1

The Office of Management and Budget (OMB) provides guidance for recipients of
ARRA funds—including Federal agencies, such as SSA. The goal of OMB’s guidelines
is to establish and clarify the steps required to meet certain crucial accountability
objectives, including
      •   prompt, fair, and reasonable awarding and distribution of funds;
      •   public transparency concerning the recipients and uses of funds, and the clear,
          accurate and timely reporting of the benefits to the public;
      •   use of funds for authorized purposes and mitigation of the potential for error,
          fraud, waste and abuse;
      •   avoidance of unnecessary project delays and cost overruns; and
      •   achievement of specific program goals and results.2

ARRA provides funding for SSA’s Office of Inspector General’s (OIG) oversight and
audit of programs, projects and activities funded by ARRA. 3




1
    Pub. L. No. 111-5, Division A, Title VIII, and § 801(b) (H.R. 1-71 to H.R. 1-72).
2
 OMB, M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009, Section 1.2, April 3, 2009. OMB’s predominant mission is to assist the President in overseeing the
preparation of the Federal budget and supervise its administration in Executive Branch agencies.
3
 Pub. L. No. 111-5, Division A, Title VIII (H.R. 1-72). ARRA requires that OIGs perform audits. Because
SSA’s HIT initiative is a long-term project, we plan to conduct additional reviews in this area.


QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)                             1
HIT is part of the President’s initiative to develop nationwide HIT standards and the
Nationwide Health Information Network to accelerate patient access to electronic health
records. The Agency’s HIT goal is to provide the knowledge, skills and tools to collect,
manage, use, and share medical information efficiently. 4

In August 2008, SSA began piloting the Medical Evidence Gathering and Analysis
through Health Information Technology (MEGAHIT) prototype with Beth Israel
Deaconess Medical Center in Boston, Massachusetts. This computer process
automatically requests and receives electronic health records in a standardized form to
support SSA’s disability claim decision-making process. MEGAHIT then analyzes the
data and alerts the disability examiner if the claim might be an allowance according to
SSA’s Listing of Impairments. 5 According to SSA, this process occurs within a matter of
minutes, resulting in shorter-than-average claim processing times.

In February 2009, SSA began working with MedVirginia in a trial implementation of a
system-to-system health information exchange through the Nationwide Health
Information Network. This is a secure Network connecting consumers, medical
providers, and others involved in supporting health care. SSA requests and receives
electronic health records through the Nationwide Health Information Network.
MEGAHIT then processes the electronic health record data. According to SSA, as of
May 2009, disability cases processed using medical information through these systems
has resulted in a higher rate of case allowances in less time compared to all disability
cases. The Agency is continuing to evaluate this process.

To perform this review, we gathered and reviewed information on ARRA and
interviewed SSA staff to obtain information on the Agency’s plans for funds earmarked
for HIT under ARRA. (See Appendix B for additional information about our scope and
methodology.)




4
    SSA obtains and uses medical evidence to make decisions in claims for disability benefits.
5
 SSA’s Listing of Impairments describes impairments that are considered severe enough to prevent an
adult from performing any gainful activity for work.


QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)                         2
                                                   Results of Review
SSA has been proactive in planning for HIT initiatives. As of July 2009, SSA had
developed a plan for spending ARRA funds designated for HIT and had established
procedures to ensure the funds were spent appropriately. Specifically, the Agency had:
   •   obtained approval of its plans from OMB;
   •   appointed a Special Advisor for HIT;
   •   designated a Senior Accountable Official;
   •   established HIT workgroups;
   •   set a timeline for awarding contracts for HIT spending; and
   •   planned for oversight of HIT contracts.

OMB APPROVAL OF SSA’S PLANS

In May 2009, OMB approved SSA’s plans for spending ARRA funds—including
$24 million for contractor support for HIT-related projects. Although SSA could spend
up to $40 million of ARRA funds for HIT activities, the Agency determined it would be
able to manage a maximum of 20 contracts, given its current resources. SSA valued
these contracts at $24 million. According to SSA, funding additional contractor support
would enable the Agency to accelerate the implementation of HIT to improve the
disability process.

HIT ADVISOR

In March 2009, the Commissioner named a Special Advisor for HIT in the Office of the
Commissioner to coordinate the Agency’s internal efforts and represent SSA with other
agencies and the private sector. Additionally, the Commissioner designated the Deputy
Commissioner for Budget, Finance and Management as the Agency’s Senior
Accountable Official for Recovery Activities.

SSA’S HIT WORKGROUPS

SSA established three strategic goals for HIT:
   •   establish the Agency as a leader in HIT;
   •   use HIT funding efficiently to produce business results for the Agency; and
   •   institutionalize HIT in SSA’s organizational structures to ensure its long-term
       viability to support policy decisions, operational processes, and technology
       planning.




QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)                3
To pursue these goals, the Agency formed three workgroups: an executive group to
serve in an advisory role for setting strategic direction within the Agency; a program
group to direct HIT program projects in various SSA components; and a procurement
team responsible for developing an acquisition strategy for using ARRA funding. A
broad range of SSA divisions was represented on these workgroups, including the
Offices of the Commissioner, Chief Actuary, Chief Information Officer, and General
Counsel; the Agency’s Deputy Commissioners; 6 and the Inspector General. 7

TIMELINE FOR SPENDING HIT FUNDS

SSA plans to spend $24 million of the ARRA funds to award fixed-price contracts by the
end of January 2010. The Agency intends to award these contracts through fair and
open competition to healthcare providers, networks, health information exchanges, and
regional health information networks. Part of these funds will also be used for HIT
contractor services to assist SSA in supporting the expansion of the MEGAHIT
application to these healthcare providers. The Agency established the following
timeline for this process.

                 Date                                    Milestone
          June 2009             Issue draft request for information
          July 2009             Respond to comments on request for information
          August 2009           Issue request for proposal
          September 2009        Proposals due
                                Complete selection and issue task orders for HIT
          December 2009
                                contractor support services
          January 2010          Award first contract
          June 2010             Implement MEGAHIT expansion with ARRA funds
          September 2010        ARRA’s deadline for committing funding
          September 2011        ARRA funding of SSA HIT initiatives ends




6
 The Agency’s Deputy Commissioners are Budget, Finance and Management; Communications;
Disability Adjudication and Review; Human Resources; Legislative and Regulatory Affairs; Operations;
Quality Performance; Retirement and Disability Policy; and Systems.
7
    The OIG has non-voting representatives on the Executive and Program Groups.



QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)                              4
SSA met the first milestone by issuing the draft request for information for authorized
release of medical information through integration with the Nationwide Health
Information Network on June 29, 2009. 8

OVERSIGHT OF HIT CONTRACTS

To meet accountability and transparency objectives outlined by OMB, SSA established
a dedicated Web page for ARRA information on the Agency’s public Web site,
http://www.socialsecurity.gov/recovery/. Additionally, OMB required that all agencies
receiving Recovery Act funds provide certain information for the ARRA Web site at
www.recovery.gov, 9 including
     •   major recovery-related news items;
     •   weekly reports showing obligations, the amount of obligations paid, and a list of
         major actions and major planned actions;
     •   formal plans for how ARRA funds will be used and managed and separate plans
         for each program receiving ARRA funds; and
     •   reporting on any entity receiving ARRA funds directly from the Agency, including
         contracts. 10

In addition to the existing laws, principles and procedures in awarding contracts, ARRA
requires heightened management attention on acquisition planning to provide
appropriate oversight and support meaningful and measurable outcomes from the use
of ARRA funds. OMB guidance indicates that to the maximum extent practicable,
contracts using Recovery Act funds shall be awarded as fixed-price contracts using
competitive procedures. 11 SSA planned to spend $24 million of the ARRA funds it
received to award contracts in accordance with ARRA requirements and OMB
guidance.




8
  The draft request for information, SSA-RFP-10-1001 (found at www.fbo.gov), requested information
from healthcare providers willing to participate in the Nationwide Health Information Network. SSA will
use this information to develop a Request for Proposal that will lead to contracts for the implementation of
the MEGAHIT project.
9
 SSA’s ARRA plan can be found at http://www.recovery.gov/?q=content%2Fagency-recovery-
plan&agency_id=016.
10
  OMB, M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009, Sections 2.2 through 2.8, and 2.10, April 3, 2009.
11
  OMB, M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009, Section 6.1, April 3, 2009.


QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)                                5
                                    Matter for Consideration
SSA decided to spend $24 million for contractor support for HIT-related projects. The
Agency has followed ARRA and OMB guidelines in developing its plans to spend ARRA
funds on HIT initiatives. Once these contracts are awarded, the Agency should
continually reassess whether the Agency could manage more contracts or whether
additional funds should be used for HIT-related initiatives.




QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)         6
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – OIG Contacts and Staff Acknowledgments




QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)
                                                                       Appendix A

Acronyms

    ARRA              American Recovery and Reinvestment Act of 2009

    HIT               Health Information Technology

    MEGAHIT           Medical Evidence Gathering and Analysis through Health
                      Information Technology
    OIG               Office of the Inspector General

    OMB               Office of Management and Budget

    Pub. L. No.       Public Law Number

    SSA               Social Security Administration




QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective we:

       Reviewed applicable sections of the American Recovery and Reinvestment Act
        of 2009 (ARRA).

       Reviewed Office of Management and Budget memorandums for the heads of
        departments and agencies related to ARRA:
            M-09-10, Initial Implementing Guidance for the America Recovery and
             Reinvestment Act of 2009, dated February 18, 2009;
            M-09-15, Updated Implementing Guidance for the American Recovery and
             Reinvestment Act of 2009, dated April 3, 2009; and
            M-09-21, Implementing Guidance for the Reports On Use of Funds
             Pursuant to the American Recovery and Reinvestment Act of 2009, dated
             June 22, 2009, and Supplement 1, List of Programs Subject to Recipient
             Reporting Requirements, and Supplement 2, Recipient Reporting Data
             Model.

       Reviewed the Social Security Administration’s (SSA) plans approved by the
        Office of Management and Budget.

       Reviewed SSA’s ARRA information posted at www.socialsecurity.gov/recovery
        and www.recovery.gov.

       Reviewed SSA’s request for information for authorized release of medical
        information through integration with the Nationwide Health Information Network
        posted at www.fbo.gov.

       Observed SSA’s HIT planning workgroup meetings involving multiple Agency
        components.

We performed our review in May and June 2009 in Boston, Massachusetts. We
conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008,
Pub. L. No. 110-409 § 7, 5 U.S.C. App. 3 § 11.


QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Acting Audit Manager, Boston Audit Division

Acknowledgments
In addition to those named above:

   David York, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-29155.




QRE: Funding for Health Information Technology Under ARRA (A-01-09-29155)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
